HHS/OIG, Audit -"Audit of California Pacific Medical Center's Organ Acquisition Costs Claimed for the Period
January 1, 1998, Through December 31, 2000,"(A-09-03-00053)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of California Pacific Medical Center's Organ Acquisition Costs Claimed for the Period January 1, 1998, Through
December 31, 2000," (A-09-03-00053)
January 4, 2005
Complete Text
of Report is available in PDF format (768 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether organ acquisition costs claimed by California Pacific
on its calendar years 1998, 1999, and 2000 Medicare Part A cost reports for its kidney, liver, heart, and pancreas transplant
programs were allowable.  California Pacific did not comply with Medicare law, regulations, and guidelines for claiming
organ acquisition costs and received excess Medicare reimbursement for organ acquisition activities.  California Pacific
claimed $710,457 in unallowable costs and $7,387,659 in unsupported costs.  The estimated Medicare overpayments for
the unallowable and unsupported costs were $391,413 and $3,340,339, respectively.  The unallowable costs were associated
with activities that did not comply with Medicare’s definition of organ acquisition.  The unsupported costs
did not comply with Medicare’s documentation requirements for reimbursement.  We recognize that some portion
of the unsupported costs may have related to organ acquisition activities and would have been allowable if properly documented.  We
recommended that the Medicare intermediary recover the Medicare overpayment, determine the allowability of the unsupported
costs, review organ acquisition costs claimed for other fiscal years, monitor future claims, and have California Pacific
develop accounting controls and training programs.